<html>
<title> - HEARING ON THE NOMINATIONS OF RHEA SUN SUH TO BE ASSISTANT SECRETARY FOR FISH AND WILDLIFE AND PARKS, U.S. DEPARTMENT OF THE INTERIOR; VICTORIA BAECHER WASSMER TO BE CHIEF FINANCIAL OFFICER, U.S. ENVIRONMENTAL PROTECTION AGENCY (EPA); ROY K.J. WILLIAMS TO BE ASSISTANT SECRETARY OF COMMERCE FOR ECONOMIC DEVELOPMENT, U.S. DEPARTMENT OF COMMERCE; AND THOMAS A BURKE TO BE ASSISTANT ADMINISTRATOR FOR RESEARCH AND DEVELOPMENT, EPA</title>
<body><pre>[Senate Hearing 113-741]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-741
 HEARING ON THE NOMINATIONS OF RHEA SUN SUH TO BE ASSISTANT SECRETARY 
   FOR FISH AND WILDLIFE AND PARKS, U.S. DEPARTMENT OF THE INTERIOR; 
     VICTORIA BAECHER WASSMER TO BE CHIEF FINANCIAL OFFICER, U.S. 
    ENVIRONMENTAL PROTECTION AGENCY (EPA); ROY K.J. WILLIAMS TO BE 
    ASSISTANT SECRETARY OF COMMERCE FOR ECONOMIC DEVELOPMENT, U.S. 
      DEPARTMENT OF COMMERCE; AND THOMAS A. BURKE TO BE ASSISTANT 
            ADMINISTRATOR FOR RESEARCH AND DEVELOPMENT, EPA

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 17, 2013

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://www.gpo.gov/fdsys

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-026 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                               
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JAMES M. INHOFE, Oklahoma
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     MIKE CRAPO, Idaho
TOM UDALL, New Mexico                ROGER WICKER, Mississippi
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York         DEB FISCHER, Nebraska
CORY A. BOOKER, New Jersey

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           DECEMBER 17, 2013
                           OPENING STATEMENTS

Bennet, Hon. Michael, U.S. Senator from the State of Colorado....     1
Brown, Hon. Sherrod, U.S. Senator from the State of Ohio.........     2
Portman, Hon. Rob, U.S. Senator from the State of Ohio...........     4
Boxer, Hon. Barbara, U.S. Senator from the State of California...     5
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     7
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    10
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    12
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......    21
Boozman, Hon. John, U.S. Senator from the State of Arkansas......    22
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    23
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware, 
  prepared statement.............................................   156

                               WITNESSES

Williams, Roy K.J., nominated to be Assistant Secretary of 
  Commerce for Economic Development, U.S. Department of Commerce.    24
    Prepared statement...........................................    27
    Responses to additional questions from:
        Senator Boxer............................................    29
        Senator Booker...........................................    30
        Senator Inhofe...........................................    31
Suh, Rhea Sun, nominated to be Assistant Secretary for Fish and 
  Wildlife and Parks, U.S. Department of the Interior............    32
    Prepared statement...........................................    34
    Responses to additional questions from Senator Boxer.........    37
    Response to an additional question from Senator Udall........    43
    Responses to additional questions from:
        Senator Booker...........................................    44
        Senator Vitter...........................................    46
        Senator Inhofe...........................................    72
        Senator Barrasso.........................................    73
        Senator Boozman..........................................    76
Burke, Thomas A., nominated to be Assistant Administrator for 
  Research and Development, U.S. Environmental Protection Agency.    85
    Prepared statement...........................................    87
    Responses to additional questions from:
        Senator Boxer............................................    90
        Senator Vitter...........................................    91
        Senator Inhofe...........................................   112
Wassmer, Victoria Baecher, nominated to be Chief Financial 
  Officer, U.S. Environmental Protection Agency..................   113
    Prepared statement...........................................   115
    Responses to additional questions from:
        Senator Boxer............................................   117
        Senator Vitter...........................................   121

 
 HEARING ON THE NOMINATIONS OF RHEA SUN SUH TO BE ASSISTANT SECRETARY 
   FOR FISH AND WILDLIFE AND PARKS, U.S. DEPARTMENT OF THE INTERIOR; 
     VICTORIA BAECHER WASSMER TO BE CHIEF FINANCIAL OFFICER, U.S. 
    ENVIRONMENTAL PROTECTION AGENCY (EPA); ROY K.J. WILLIAMS TO BE 
    ASSISTANT SECRETARY OF COMMERCE FOR ECONOMIC DEVELOPMENT, U.S. 
      DEPARTMENT OF COMMERCE; AND THOMAS A BURKE TO BE ASSISTANT 
            ADMINISTRATOR FOR RESEARCH AND DEVELOPMENT, EPA

                              ----------                              


                       TUESDAY, DECEMBER 17, 2013

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:34 p.m. in room 
406, Dirksen Senate Building, Hon. Barbara Boxer (chairman of 
the Committee) presiding.
    Present: Senators Boxer, Cardin, Whitehouse, Vitter, Crapo, 
Inhofe, Fischer, Boozman, and Barrasso.
    Senator Boxer. Today, the Environment and Public Works 
Committee will consider a number of nominations.
    I have discussed with Senator Vitter the fact that we have 
two Senators present who are on terrible time crunches. Before 
we make our opening statements these two Senators are here to 
speak on behalf of nominees. I am going to ask Senator Bennet 
to start.

           OPENING STATEMENT OF HON. MICHAEL BENNET, 
            U.S. SENATOR FROM THE STATE OF COLORADO

    Senator Bennet. Thank you, Chairwoman Boxer and Senator 
Vitter. It really is a great privilege to be here today, 
particularly to be here next to my colleague, Senator Brown, 
and a particular pleasure to appear before you in support of 
Rhea Suh to be our next Assistant Secretary for Fish, Wildlife 
and Parks at the U.S. Department of the Interior, one of the 
great jobs in the U.S. Government.
    Rhea's parents came to this country from South Korea and 
worked hard to build a good life for their family. They moved 
to Boulder, Colorado, where Rhea was born and raised. Learning 
to fish in Lake Granby or camp in Rocky Mountain National Park, 
Rhea developed an early passion for Colorado's natural 
resources.
    It is a passion that has driven much of her career. From an 
early age, Rhea worked hard and excelled in school. She 
graduated from Barnard College and earned a Masters in 
Education from Harvard University. She has also received both 
Fulbright and Marshall scholarships.
    Rhea has worked in a diverse range of roles. She served the 
New York City Public School system as a high school science 
teacher. I can tell you, as a former school superintendent 
myself, it is hard to come up with a better testament to 
someone's character than that.
    Rhea advised former Senator Ben Nighthorse Campbell, a 
Republican, on public lands, energy and environmental issues. 
In that role, she worked effectively across the aisle to pass 
legislation critical to Colorado.
    She also worked at both the Packard and Hewlett Foundations 
where she planned and executed major national conservation 
initiatives.
    Most recently, Rhea was confirmed in 2009 by this Senate as 
Assistant Secretary for Policy, Management and Budget at the 
Interior Department. In this capacity, she has overseen the 
Department's human capital, business and budget management. It 
is a tough job and Rhea has done it for 4 years now with skill 
and poise, earning praise across the country for her management 
style.
    I know Rhea will approach this new position with an 
emphasis on collaboration and common sense, a signature of the 
State in which she was raised and which I am now privileged to 
represent. She will work closely with local officials, farmers, 
ranchers and environmentalists in support of policies that both 
promote economic growth and safeguard our natural resources.
    I know she will work hard to make sure that future 
generations of Coloradoans, like Rhea herself, continue to be 
able to enjoy fishing, hiking, camping and the great outdoors.
    Thank you for your time, particularly Madam Chairwoman, for 
your consideration in letting me go first. I hope the Senate 
will swiftly confirm Rhea Suh.
    Thank you.
    Senator Boxer. Thank you, Senator. I know you are 
introducing another nominee across the hall, so go forward.
    Senator Brown, we are delighted to see you here at this 
Committee. Please proceed.

           OPENING STATEMENT OF HON. SHERROD BROWN, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Brown. Madam Chair, it is an honor to be before 
your Committee, and Senators Vitter and Crapo, two Banking 
Committee colleagues of mine with whom we have worked well.
    We come before Committees and introduce people from our 
States with some frequency, especially if you represent a State 
as large as the Chairperson's. Many times I do not know the 
person very well or have only met the nominee once or twice. 
However, I consider Mayor Williams a friend.
    I remember when my wife and I had brunch with him and 
Sonja, his wife, in Youngstown soon after he took the oath of 
office as Mayor of Youngstown. I have worked with him up close 
and watched him up close for 7 years since. I have seen his 
progress as a young Mayor of Youngstown to his work as the auto 
czar where he is very sensitive to the issues that matter so 
much for our State to his appointment now to the Department of 
Commerce with special focus on EDA.
    I look at Youngstown--Senator Portman knows this also--and 
the comeback, a city that once consisted of 180,000 people but 
is now less than half that size, but I can see all kinds of 
turnaround examples in the city of Youngstown and the Mahoning 
Valley along sort of the steel corridor of Route 422.
    I have seen his work with the Youngstown business incubator 
which attracted EDA moneys because it is known as one of the 
best incubators in the country and has been very successful 
bringing young people back to Youngstown; for entrepreneurs in 
starting businesses and leveraging Federal dollars and serious 
numbers of companies with increasing numbers of employees.
    I saw his work with the Recovery Act and enforcement of 
trade rules to attract B&M Star Steel, a French company, to 
invest in Mahoning Valley hundreds and hundreds of steel jobs 
in Youngstown, Ohio. I saw what he did as Mayor and then as 
auto czar. There is a more technical term for that but that is 
how most of us refer to the work he did for these communities 
after we went through all the difficulties in the auto industry 
in Lordstown, Ohio which produces the Chevy Cruz. My wife 
drives one, my brother drives one, three people in my office 
drive one and my daughter drives a Chevy Cruz, all made by Ohio 
workers in Youngstown, Ohio. He gets a lot of the credit for 
that.
    After he became the auto czar and he looked at the number 
of auto plants that had shut down, he understood there was sort 
of a race between developers buying these old auto plants, 
tearing them, selling them for scrap and making a serious 
amount of money or working with local communities, local 
businesses and local labor unions to preserve these plants and 
sell them to a developer who would reindustrialize them.
    We are seeing one of those in Dayton right now. Senator 
Portman, the Governor and I and the Dayton Development 
Coalition are working to reindustrialize one of these plants in 
Dayton. We are seeing examples of that around the country.
    My point, as I wrap up, is that Jay Williams understands 
the partnership between the Federal Government and what we can 
do with EDA; the partnership between the Federal Government and 
local elected officials. He knows how to do that better perhaps 
than any public official I know in my State.
    It is my thrill to be able to introduce Jay and have him 
come forward in a moment for testimony after Senator Portman 
speaks.
    I thank you, Madam Chair, for being allowed to come before 
your Committee.
    Senator Boxer. Thank you, Senator.
    We have heard such great personal stories from both of our 
Senators. Now we will turn to Senator Portman.
    Just so our colleagues know, we are taking the Senators not 
on the Committee first and then we will go to opening 
statements.
    Senator Portman.

            OPENING STATEMENT OF HON. ROB PORTMAN, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Portman. Thank you, Madam Chairwoman. I appreciate 
it. It is good to be with you, Ranking Member Vitter and other 
Committee members, today.
    I am here to join my colleague, Senator Brown, in 
introducing a fellow Ohioan, the Mayor of Youngstown, Jay 
Williams.
    He has been nominated for a very important job, Assistant 
Secretary of Commerce for Economic Development at the 
Department of Commerce. In our view, I think it is fair to say 
the most important job we have right now is to bring the jobs 
back. This Commerce Department position is critical to that.
    Too many workers in my State of Ohio and around this 
country have been out of a job for too long, some for months, 
some for years, and Jay understands that. He has not only seen 
it firsthand during his days as Mayor of Youngstown, he has 
spent much of his life trying to improve the economic 
conditions of all Americans.
    If confirmed, I look forward to working with him and his 
colleagues over there to keep the economic development projects 
moving forward on the main streets in Ohio and in your States 
around the country.
    Mayor Williams is a son of Ohio, born and raised in 
Youngstown, took a degree in Finance at Youngstown State 
University, a fine institution and turned to a career in 
banking where he was at the Federal Reserve Bank of Cleveland 
but was also Vice President of First Place Bank. He understands 
the difficulty of getting credit, finding a loan and how small 
businesses struggle with that.
    He has made impacts at various positions. He served as 
Mayor of Youngstown from 2006 to 2011. There he focused a lot 
on economic development. He wasn't always focused on making 
himself popular; he was focused on doing the right thing. I 
think from the Right and Left, sometimes he got a bit of input 
about that but his job was to figure out how to turn around 
things in the Mahoning Valley. He took on that challenge 
directly.
    He worked with Youngstown State University, his alma mater, 
which has a terrific internship program. I visited his 
incubator program which Senator Brown talked about. It is truly 
one of the incubators that are working well around the country.
    He has worked with the auto companies, as noted, but also 
with some of our steel fabricators and our steel mill in town 
to bring more jobs.
    He received the John F. Kennedy New Frontier Award in 2007, 
an award given by the JFK Library Foundation annually to 
recognize two people in the entire country under the age of 40 
whose contributions in elective office, community service or 
advocacy demonstrate the impact and value of public service in 
the spirit of JFK.
    In 2011, he became Executive Director of the Office of 
Recovery for Auto Communities and Workers, otherwise known as 
the auto czar at the Department of Labor. His job was to work 
with local communities, including some in Ohio, which were 
impacted and benefited from some of the improvements in the 
auto industry. In that role, he worked hand in hand with 
struggling communities trying to figure out how to get back on 
their feet.
    Last year, he was detailed to the White House to serve as 
Deputy Director of the Office of Intergovernmental Affairs to 
work with fellow mayors and other local leaders across the 
country.
    He has already given a lot to the people of Youngstown, to 
Mahoning Valley, to our State of Ohio and to our country. I 
have no doubt he is ready to give more. I fully support his 
nomination to serve as Assistant Secretary of Commerce for 
Economic Development and to lead the Economic Development 
Administration.
    Thank you for letting me come by today.
    Senator Boxer. Thank you, Senator, so much. We know that 
you are also on a tough schedule, so thank you for being here.
    You should both be proud to have the Senators come and 
speak for you. I think it is a great tribute to you both.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Today we will consider a number of 
nominations. The confirmation of qualified individuals to lead 
agencies is such an important responsibility of the Senate. I 
believe it is critical we move forward with these nominations 
so that our agencies can fulfill their missions to serve the 
American people.
    Jay Williams, as we have heard, brings over 20 years of 
experience in both the private and public sectors which will 
serve him well as the Assistant Secretary of Commerce for the 
Economic Development Administration, an agency I truly believe 
had made quite a difference in the lives of our communities.
    He is currently the Executive Director of the Office of 
Recovery for Auto Communities and Workers at the Department of 
Labor. As we heard, he has played a critical role in helping 
States and cities rebuild their manufacturing potentials, 
creating job opportunities and encouraging economic 
development.
    Previously, he was the Mayor of the city of Youngstown, 
Ohio. He worked there with the private sector as well.
    If confirmed, he will be responsible for leading the EDA, 
an agency whose mission is to help economically distressed 
communities.
    Next, I want to welcome Rhea Sun Suh, the nominee to be 
Assistant Secretary for Fish, Wildlife and Parks. We heard 
about you from Senator Bennet. You worked for Ben Nighthorse 
Campbell and have had a long career in working to conserve our 
Nation's most precious resources, including the time you served 
as Assistant Secretary for Policy, Management and Budget at the 
Department of the Interior. You have served there for 4 years.
    If confirmed, you would help to oversee the Fish and 
Wildlife Service, the guardian of our Nation's natural 
treasures and wildlife and help support tourism and recreation 
that boost our economies at home. In fiscal year 2011, national 
wildlife refuges pumped $2.4 billion into the economy and 
supported over 35,000 jobs.
    In my home State, the Fish and Wildlife Service manages 
dozens of refuges, protects iconic species like the bald eagle 
and the California condor and helps manage millions of birds 
that migrate through our State every year.
    The Committee is also considering the nomination of Dr. 
Thomas Burke to be Assistant Administrator Research and 
Development at the Environmental Protection Agency which 
conducts research and provides expertise on science and tech 
issues to many EPA programs.
    I think we all believe that strong science is the 
foundation to make sure that EPA safeguards public health and 
the environment. Dr. Burke brings a wealth of experience there.
    Currently, he is Professor and Associate Dean of the John 
Hopkins Bloomberg School of Public Health in Baltimore, 
Maryland. With over 35 years of experience in State and Federal 
leadership, including as an official at the State of New 
Jersey's Department of Health, Dr. Burke has also chaired 
several studies by the National Academy of Sciences and has 
served on multiple EPA science advisory councils and brings a 
wealth of experience.
    We will also consider the nomination of Ms. Victoria 
Baecher Wassmer to be Chief Financial Officer of the 
Environmental Protection Agency. Ms. Wassmer has 17 years of 
experience working on budgeting, analysis and management 
issues.
    She began her service at the OMB, has worked in the private 
sector and local government. Currently, she serves as the 
Assistant Administrator of the FAA's Office of Finance.
    If confirmed, Ms. Wassmer would help formulate and manage 
EPA's annual budget and performance plan and provide oversight 
for the agency's financial operations.
    We know there are a number of reforms going into place 
right now as a result of the scandal involving John Beale, an 
EPA employee who, as best I can describe, was like the movie, 
Catch Me If You Can, a kind of rogue. I do not even know how to 
describe him. He was a phony, falsely claimed he was a CIA 
agent, he stole money and now the Department of Justice is 
getting that money back. He has begun, I believe, serving a 
term or is being sentenced. He is being sentenced tomorrow. His 
fraudulent activities span multiple Administrations. He did 
plead guilty in Federal court to theft of Federal property.
    This position is absolutely critical because now we have to 
make sure something like this never happens again from these 
rogue actors, not only at EPA but anywhere in Government. This 
Committee is going to continue to conduct oversight in this 
matter as the EPA Inspector General completes his 
investigation.
    I want to note that I spoke to Administrator McCarthy about 
this again. She said she worked hard to shine light on this 
issue and the Obama administration Department of Justice is 
working to make sure taxpayers are reimbursed. I look forward 
to working with the new CFO on all of these issues.
    This hearing is important. I thank colleagues for attending 
and showing interest in these important positions.
    With that, I will call on Ranking Member Vitter.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you very much, Chairman Boxer for 
convening today's hearing. I also want to thank all of our 
nominees for being here today.
    I would be remiss if I didn't express my concern over the 
scope of this hearing that covers four Presidential nominees 
from three distinct agencies. I really believe, as do my 
colleagues on this side, that scope should warrant a more 
thorough Committee review than this pretty rush one at the end 
of the year.
    Unfortunately, I think it is the nature of our current 
Senate that we have had a limited opportunity to do enough 
oversight. Because that is the case, I want to take this 
opportunity in my opening statement to outline some significant 
concerns about the failure of the Committee on oversight.
    The EPA, as the Chairman mentioned, is wrought with 
mismanagement and lack of appropriate responsibility to account 
for taxpayer dollars. That is certainly over multiple 
Administrations, not just this one. The most recent and blatant 
example of this ineptitude is the case she mentioned of CIA 
agent John Beale. Beale's scam was made possible by a 
widespread incompetence within the agency, in my opinion, and 
the Committee has also failed to hold a budget hearing on the 
EPA.
    The two are directly related, and I think it is a big, big 
omission that this Committee does not do what is traditional 
and hold an EPA budget hearing toward the beginning of the 
Congress.
    In addition to these concerns, the agency is in perpetual 
overdrive executing the President's extreme climate agenda by 
administrative fiat. In reality, that has the ultimate impact 
of increasing energy prices being a regressive tax on consumers 
and making America less competitive internationally.
    This side of the Committee has repeatedly asked for a 
climate change oversight hearing regarding this with the EPA 
and other Administration officials. While that is set to be 
scheduled in the new year, we repeat our call that include key 
witnesses from the Government--EPA, Interior, Commerce and so 
forth. It has to include those key Government witnesses.
    I would also direct significant concerns to the Department 
of the Interior where Ms. Suh has served in a leadership role 
for 4 and a half years. The Department, which is charged with 
managing our lands for multiple uses, has focused instead on an 
anti-fossil fuel agenda. The Administration's policies use 
questionable scientific and economic analysis to cut off water 
to farmers, to restrict Native Americans from producing their 
own resources, to eliminate access to any type of resource 
production that the Left does not think is appropriate, and so 
forth.
    Also, the Interior Department has gone to new levels to 
expand upon the practice of negotiating closed door settlement 
agreements with radical environmental organizations that 
exclude from the discussion the folks directly impacted. Again, 
the Committee remains silent, and we do not have adequate 
oversight, in my opinion.
    This current state of affairs is not just offensive to 
those on my side of the aisle. Let me quote Jonathan Turley, a 
supporter of President Obama, a Shapiro professor of public 
interest law at George Washington University. He stated, 
``There is ample room given to a President in setting 
priorities in the enforcement of laws. Even with this ample 
allowance, however, I believe that President Barack Obama has 
crossed the constitutional line between discretionary 
enforcement and defiance of Federal law.''
    Professor Turley further stated, ``President Obama is not 
simply posing a danger to the constitutional system, he becomes 
the very danger that the Constitution was designed to avoid.''
    That sort of overreach is exactly why our oversight role is 
so essential. It is exactly why our role with regard to 
executive nominations is so important as part of that oversight 
role. My side of the aisle brings those very strong and 
legitimate concerns and wants to do more aggressive and 
appropriate oversight through this Committee.
    Thank you, Madam Chair.
    Senator Boxer. Thank you, so much.
    We are going to be putting together the number of hearings 
we have had on all of the issues you talked about just to give 
you a sense of how it was when Senator Inhofe was Chairman just 
to compare how many witnesses came before us, how many nominees 
of Bush you took at one time because I was here and I don't 
think that hearing from four different nominees is in any way 
unusual, not only for this Committee, but for any committee.
    I also want to say I saw Jonathan Turley and my 
understanding is he was attacking Obama from the Left and it 
had to do with the NSA, but I am going to go get those because 
I do not think it had anything to do with anything else.
    Senator Vitter. Madam Chair, I would welcome that 
discussion. As part of that discussion, I would like to look at 
the routine practice of having budget hearings. I think that is 
essential oversight for the EPA and for any agency, as well as 
these other areas of oversight.
    Senator Boxer. Sure.
    Senator Vitter. I am particularly concerned about getting 
the agencies involved in the climate agenda, getting them to 
testify directly about their administrative actions.
    Senator Boxer. Sure. The good news is you have already 
signed up on a hearing on climate for January 16 and you will 
get to pick a lot of the witnesses. Here is the other point, if 
I could just finish because I think it is important. You used 
your time to criticize how I am running this committee so I am 
going to take the time it takes to respond.
    You have quoted people having viewed the Constitution--I do 
not believe it had anything to do with EPA, but I am going to 
go back and look at it because I watched him saying those 
things, criticizing Obama from the Left. It is interesting that 
you would join in on that, but that is OK.
    Here is the thing. We have the climate hearing. The budget 
hearing was canceled because you and your friends over here, 
your dear colleagues, held up Gina McCarthy and asked her a 
thousand questions and held up her confirmation for months. She 
was not part of four people, it was her. We did have a hearing 
on the budget. It had to be canceled.
    Of course we are going to take another look at that but in 
my opinion, and it is a disagreement here, I sense in your tone 
and tenor, and you have every right and I defend your right to 
take whatever position you and your colleagues take, it seems 
to me by being critical of the fact that we are having a 
hearing today, calling it a rushed hearing, I do not view it as 
a rushed hearing.
    The people we are hearing from today are super-qualified. 
One of them worked for a Republican United States Senator. To 
make it sound like we are rushing and jamming through is just 
wrong.
    We will continue to respectfully disagree. I feel that we 
have done a tremendous amount of oversight. We are having I 
don't know how many hearings on the NRC oversight and have more 
coming up in February. For your sake and my sake, I am going to 
make a list of all the hearings we have had over time and 
compare it to the oversight hearings Senator Inhofe, who I 
thought was a great chairman, had. We will take a look at it.
    Senator Vitter. Madam Chairman, may I respond?
    Senator Boxer. Yes, you may.
    Senator Vitter. Thank you. I will be succinct.
    My comments were about our general oversight 
responsibility. We will just have to agree to disagree. I do 
not think we have been nearly aggressive enough in fulfilling 
that responsibility. Just to underscore so we can move forward 
productively, my two top priorities would be a budget hearing, 
which I think is essential. I do not understand how the Gina 
McCarthy thing had to lead to canceling that.
    Senator Boxer. Other than that she was the head of the EPA.
    Senator Vitter. If could just finish?
    Senator Boxer. You said you didn't know how it happened. It 
is like talking about an agency without the head of the agency 
there.
    Senator Vitter. Well, she is there now and we have asked 
for a budget hearing to be scheduled.
    Senator Boxer. We will have it.
    Senator Vitter. OK, great. We have been asking for that, it 
was scheduled and it was canceled.
    My second top priority is to be able to call in the top 
leaders of Federal agencies directly involved in pushing this 
extreme climate agenda by administrative fiat. That has not 
been agreed to in terms of getting those heads of the agencies 
as part of that climate discussion.
    Senator Boxer. I will call in every agency over which we 
have jurisdiction. I have the gavel. You may get it, and then 
you can call in whoever you want. I am not going to call in 
people who I do not have any oversight over. I think that is an 
abuse of power. Just know I am really not going to do that.
    Anyone that we have oversight over will be here. You can 
question them. Gina McCarthy will be here, I am really looking 
forward to it, on January 16. Believe me, we will go all day 
and you can talk about budget, clean air, dirty air, clean 
water, anything you want.
    With that, we are going to turn to Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Madam Chair.
    I assume that the four nominees still want to come forward.
    First, I want to thank the Chair for the continuation of 
the tradition of this Committee, the bipartisan tradition of 
this Committee as it relates to nominations and that is to 
bring together well qualified professionals whose 
qualifications are not under challenge at all--hopefully these 
are non-controversial confirmations--to bring that together, to 
package so that our Committee can take action.
    Quite frankly, I haven't heard from a single constituent 
who believes that the U.S. Senate is moving too quickly on 
anything. I am happy that we have these confirmation hearings 
today.
    I would make one further comment. I don't want to get 
involved in the oversight issue but it is certainly a lot 
easier to hold an agency accountable if you have the confirmed 
positions in place. In too many cases, we have seen very 
qualified people held up from being confirmed not because of 
their qualifications, but by concerns members had in regard to 
the agency for which they are being nominated.
    It is very difficult to say we are going to hold you 
accountable but we won't give you the confirmed positions in 
order to do the work you need to do.
    Madam Chair, I would ask that my full statement be included 
in the record.
    I had a chance to meet with Ms. Suh. I appreciate her 
willingness to come forward for a very important position with 
Fish, Wildlife and Parks and the National Park Service. I had a 
chance to discuss with her several priorities we had in regard 
to converting the Tubman National Monument into a national 
park.
    I know that you are truly a child of the west, and you have 
done great things in the western part of our State. We know 
that you will bring that enthusiasm to the east coast of the 
United States, particularly as it relates to our national 
treasure, the Chesapeake Bay. We also know that you will work 
with us as we go over why we cannot get damages from those who 
abuse our wildlife refuges and to look at ways we can deal with 
invasive species.
    These are all areas I mention because I had the honor in 
this Congress to chair the Water and Wildlife Subcommittee of 
the Environment and Public Works Committee, areas in which we 
will be working together hopefully to advance the agenda during 
this Congress.
    To Dr. Thomas Burke, thank you. You are a Marylander. That 
gives you a special view in my eyes anyway and I thank you for 
your dedicated leadership. As Chairman Boxer said, we look to 
you and the agency for which you are seeking confirmation to 
give us the best science because our decisions should be based 
on science. Having a confirmed head will help us be able to get 
that type of guidance for our Committee decisions and 
deliberations.
    I remember your testimony before this Committee, Madam 
Chair, when you had the hearing on the quality of our drinking 
water and contamination with chromium-6. Dr. Burke, I think, 
added greatly to the quality of that hearing and to our 
responsibility. We thank you for being willing to step forward.
    To the other two nominees, Mr. Roy Williams, let me first 
thank you. The Assistant Secretary of Commerce for Economic 
Development is a very important position. In my own State of 
Maryland, the EDA program is critically important to our rural 
areas. In western Maryland, we have the Tri-County Council for 
Western Maryland, and on the shore, we have the Upper Shore 
Regional Council and the Tri-County Council for the Lower 
Eastern Shore that have done incredibly strong economic 
opportunities as a result of EDA's participation. We will 
certainly working with you in that regard.
    To Ms. Wassmer, we already discussed that the Chief 
Financial Officer is critically important to make sure that we 
have the right policies in place in order to make sure we are 
getting the best value for the money being spent by the public.
    Last, Madam Chair, I want to take this opportunity not only 
to thank the four nominees for being willing to serve the 
public, but this is a very challenging time to serve in the 
public sector. Your willingness to step forward in public 
service is very, very much appreciated.
    We know you cannot do it alone. We know your family makes 
equal sacrifice. We know that from the sacrifices our families 
make. I particularly want to thank the family members for being 
willing to share their person with the community in this 
leadership position.
    [The prepared statement of Senator Cardin follows:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    Chairman Boxer, thank you for holding this hearing, and I 
want to welcome each of the nominees to the Committee. I look 
forward to hearing your testimony and answers to our questions. 
All four of today's nominees have impressive backgrounds and a 
demonstrated dedication to public service. I offer you best 
wishes with the proceedings of your confirmations.
    The U.S. Fish and Wildlife Service and the National Park 
Service serve as important custodians of our Nation's natural 
resources. As a ``child of the West,'' Rhea Suh has a lifelong 
understanding of the importance of robust conservation efforts 
to ensure current scenery and economic opportunities remain 
strong, and to provide these resources with protections for 
their use by future generations.
    While there is certainly no fault in being from the West, 
Ms. Suh and I discussed in our meeting last week my interest in 
having the Fish and Wildlife Service and the National Park 
Service pay due attention to the needs here in the East, 
particularly in the Chesapeake Bay region. There is great 
opportunity and State and local support for Federal help in 
protecting one of the mid-Atlantic's most precious and valuable 
natural resources.
    I look forward to working with you in executing the many 
initiatives we have in the region. From building on the 
establishment of the Harriet Tubman National Monument to making 
the Tubman National Historical Park, to providing the Fish and 
Wildlife Service greater authority to collect damages when 
refuges are harmed by irresponsible actors, to bringing more 
Land and Water Conservation Fund dollars into the region to 
protect the Bay as is intended by the President's May 2009 
Chesapeake Bay Executive Order. There is a lot of work to do.
    Having worked for both Republicans and Democrats, including 
Senator Ben Nighthorse-Campbell, she understands the importance 
of working across party lines to accomplish great things.
    I also look forward to working with you to develop a 
Federal strategy for invasive species control. Until recently, 
the wetlands at the Blackwater National Wildlife Refuge in my 
home State, and wetlands in the home State of the Ranking 
Member, were threatened by nutria. This invasive rodent species 
attacks the roots of wetland plants, undermining conservation 
efforts of the U.S. Fish and Wildlife Service and harming the 
overall health of the Chesapeake Bay. Increased coordination 
efforts between Federal, State, and local partners can better 
protect critical investments in place on Federal and private 
lands across our Nation from invasive species.
    But there is a growing threat nationwide from a wide range 
of invasive species. Pythons in the Everglades. Stinkbugs in 
the Mid-Atlantic. Asian Carp in the Great Lakes.
    These non-native and dangerous species present real public 
health, safety, economic and ecological threats to the places 
they are found. I want to work with USFWS to develop a 
comprehensive approach to combating these problems nationwide.
    Dr. Thomas Burke, in addition to being a Maryland resident, 
has an extensive background in protecting the public health and 
advancing environmental protection efforts and is exceptionally 
well qualified to lead the EPA Office of Research and 
Development.
    His 35 years as a State scientist, public health official, 
research investigator, member of the Science Advisory Board, 
member of the Board of Scientific Counselors, and Associate 
Dean for Public Health Practice and Training at Johns Hopkins 
Bloomberg School of Public Health have provided him with an 
understanding of the importance of having credible science to 
base environmental health decisions.
    His work with the late Senator Lautenberg on chemical 
safety reform will serve this Committee well as we undertake 
Toxic Substances Control Act Reform. I also found his testimony 
before this Committee in 2011 on the risks of Chromium-6 
contamination in drinking water to be incredibly helpful as 
Congress continues to look for opportunities to improve the 
safety of our Nation's drinking water.
    Sound science should be the primary factor on which the EPA 
bases their decisionmaking to protect the environment and 
public health. As the chair of a National Academy of Sciences 
committee, Dr. Burke has worked to peer review EPA risk 
analysis reports and offered recommendations to improve future 
risk assessments. Dr. Burke has the credentials, respect, and 
bipartisan approach needed to ensure the EPA reaches the best 
scientific answers to base their decisionmaking on.
    Dr. Burke's confirmation is urgently needed; this post has 
been without a confirmed Assistant Administrator for nearly 2 
years. This gap in leadership caused attacks on EPA's 
scientific review processes to result in unnecessary delays in 
decisionmaking. A confirmed Assistant Administrator is needed 
to get EPA's work back on track and to allow science to 
determine what is needed to protect public health.
    Chairman Boxer, the EPA needs a Senate-confirmed Assistant 
Administrator for the EPA Office of Research and Development. 
Dr. Burke has proven to be that person.
    Last, I want to talk briefly about the emerging economies 
of Western Maryland and the Eastern Shore of Maryland. These 
historically underserved communities in these beautiful rural 
reaches of Maryland have benefited from the planning support 
and investments from the Economic Development Administration. 
From Global Climate Change Mitigation Incentive Fund grants to 
Economic Development District Planning support, these parts of 
Maryland have seen the important link between a strategic 
Federal investment and the ability for the local community to 
successfully leverage Federal funding. Mr. Williams, as you go 
through your confirmation process I would encourage you to 
engage with the Tri-County Council of Western Maryland, the 
Upper Shore Regional Council, and Tri-County Council for the 
Lower Eastern Shore.
    Should you be confirmed, I look forward to working with you 
in these parts of my State to increase the availability of 
broadband Internet access, improve transportation and provide 
greater regional economic planning support to foster economic 
growth in these underserved communities.
    I appreciate the opportunity to hear from the nominees 
today. Thank you.

    Senator Boxer. Thank you very much, Senator.
    I would turn to my friend, Jim Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    First of all, let me thank Ms. Rhea Suh for coming by the 
office. We spent a long time together and I do appreciate that, 
and of course Roy Williams. I would have to tell them what I 
told you when you walked in the door. I tell my fellow Senators 
all the time, if you want a hard job, you become the mayor of a 
major city. You have done that, and that is why to me when you 
walked in, you were immediately qualified for this job, for 
that reason.
    There is no hiding place if you are mayor. If they don't 
like the trash system, it ends up in your front yard, and it 
did in mine.
    I am going to touch on something a bit different than 
Senator Vitter on the effect that the nuclear option might have 
on this Committee because this Committee has operated very, 
very well. When you were talking about the number of nominees, 
I remember one time when I was chairman, we had seven nominees 
in one hearing.
    This is the first nomination hearing we have had since the 
nuclear option nominees. If I can take a couple minutes, I 
would like to discuss how this might affect what we are doing 
here.
    Just last Saturday, the Washington Post confirmed my claim 
that the White House systematically delayed in enacting a 
series of rules on the environment. I am quoting what they said 
and this is exactly what I had said in this Committee. ``The 
White House systematically delayed in enacting a series of 
rules on the environment, worker safety and health care to 
prevent them from becoming points of contention before the 2012 
election.''
    I remember talking about that very thing. That is what that 
report I put together just 2 weeks before the election was 
about.
    As Ranking Member, I issued that report warning that 
President Obama and his team of nominees would intentionally 
manipulate the rulemaking process to avoid the political 
consequences preventing the revelation of these true economic 
pains, all that happening right before the election. 
Nominations have long been one of the primary means by which 
this Committee, especially those in the minority, can provide a 
check on this rulemaking bureaucracy.
    However, our oversight leverage in this Committee has now 
been diminished, thus allowing this flexible decisionmaking 
process of the Administration to continue to operate in secret 
without any congressional oversight. Democrats are fully aware 
of this.
    Back in the days when I was chairman and Senator Carper was 
a minority he actually did something that showed how beneficial 
this is. He used the nomination of Governor Mike Levitt to head 
the EPA to extract data on the 4(p) bill that he was working on 
with Senator Jeffords.
    In fact, the entire Democratic side of the committee 
boycotted Governor Levitt's confirmation hearing because they 
were not satisfied with his answers to their 75 pre-hearing 
questions, keeping in mind that he didn't have any prior 
experience as an administrator so it was very difficult to do 
that.
    Nevertheless, the Democrats stonewalled the process, and it 
worked. Senator Carper eventually got the information he 
requested. I agree with that. I think he should have taken the 
action that he did and it worked. Minority rights were 
protected.
    I think it is important to remember because President Obama 
actually mentioned Gina McCarthy's confirmation process in his 
remarks supporting the Democrats' move to end the 60-vote 
threshold on nominations.
    Our rationale behind delaying McCarthy's consideration was 
a lack of responsiveness toward our request for information, 
the most important of which was the data underlying the studies 
the EPA used to justify the costly regulations.
    Another example is around the time I was first elected to 
the Senate in 1994, President Clinton tried to move Bob 
Perciasepe from the head of Water to the head of Air without 
going through the regular confirmation process. In protest, I 
put a blanket hold on all Presidential nominees. In turn, 
President Clinton formally submitted the change to the Senate. 
We then held a hearing and confirmed Perciasepe to the Air 
Office and moved along.
    In this case, our hold was used to protect the integrity of 
the Senate's constitutional role to provide advice and consent 
to the Presidential nominations. Now that the rules have been 
changed, exercising this kind of authority will be nearly 
impossible. This should be a real concern.
    When I chaired the Committee, I remembered working with 
Dale Hall who served as President Bush's Director of Fish and 
Wildlife. Prior to his nomination being made official, the Fish 
and Wildlife Service provided reams of data that detailed the 
work they were doing around the country. Much of the data was 
of particular concern to members of the Committee and it gave 
us a captive audience with the service that we might not 
otherwise have had. Because this Committee is actively engaged 
and vested in the nomination process, we had a much more 
cooperative relationship.
    I guess I am saying a lot of that is lost now. I think we 
should sit back and look at how that act would affect minority 
rights in this Committee. I think very likely something could 
change in a short period of time, and the majority today could 
become the minority, so they should be as concerned about that 
as I am today.
    Thank you, Madam Chairman.
    [The referenced article follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    This is the first nominations hearing we've had since the 
Democrats exercised the nuclear option on nominations, and I 
think we need to take a few minutes to talk about how these 
actions have eviscerated this Committee's ability to shine a 
light on rulemaking decisions that occur behind closed doors at 
EPA and the White House.
    Just this last Saturday, the Washington Post confirmed my 
claim that ``The White House systematically delayed enacting a 
series of rules on the environment, worker safety and health 
care to prevent them from becoming points of contention before 
the 2012 election.''
    As Ranking Member, I issued a report on October 18, 2012, 
warning that the President and his team of handpicked nominees 
will intentionally manipulate the rulemaking process to avoid 
the political consequences, preventing the revelation of the 
true economic pain.
    Nominations have long been one of the primary means by 
which this Committee--especially those in the minority--can 
provide a check on this rulemaking bureaucracy.
    However, our oversight leverage in this Committee has now 
been completely diminished, thus allowing this flexible 
decisionmaking process of the Administration to continue to 
operate in secret without any congressional oversight--and 
Democrats are fully aware of this. Senator Carper, my friend 
from Delaware, used the nomination of Governor Mike Leavitt to 
head the EPA to extract data on the 4P bill he was working on 
with Senator Jeffords.
    In fact, the entire Democrat side of the Committee 
boycotted Governor Leavitt's confirmation hearing because they 
were not satisfied with his answers to their 75 pre-hearing 
questions, never mind the fact that he did not work at EPA 
prior to becoming Administrator, making his access to their 
questions' answers much more difficult.
    Nevertheless, the Democrats stone-walled the process, and 
it worked. Senator Carper eventually got the information he 
requested.
    I think this is important to remember because President 
Obama actually mentioned Gina McCarthy's confirmation process 
in his remarks supporting the Democrats' move to end a 60-vote 
threshold on nominations. Our rationale behind delaying 
McCarthy's consideration was a lack of responsiveness toward 
our requests for information, the most important of which was 
the data underlying the studies EPA uses to justify its costly 
regulations.
    In another example, around the time I was first elected to 
the Senate in 1994, President Clinton tried to move Bob 
Perciasepe from head of the Office of Water to head the Office 
of Air without going through the requisite confirmation 
process.
    In protest, I put a blanket hold on all presidential 
nominations. In turn, President Clinton formally submitted the 
change to the Senate. We then held the hearing, confirmed 
Perciasepe to the Air Office, and moved along.
    In this case, our hold was used to protect the integrity of 
the Senate's constitutional role to provide advice and consent 
to the President's nominations. Now that the rules have been 
changed, exercising this kind of authority will be impossible.
    This should be a real concern. When I was Chairman of this 
Committee, one person I remember working with was H. Dale Hall, 
who served as President Bush's Director of the Fish and 
Wildlife Service. Prior to his nomination being made official, 
the Fish and Wildlife Service provided us with reams of data 
that detailed the work they were doing around the country.
    Much of this data was of particular concern to members of 
the Committee, and it gave us a captive audience with the 
Service that we might not otherwise have had. Because the 
Committee was actively engaged and invested in the nominations 
process, we had a much more cooperative relationship with the 
Administration and received a lot of the information we needed.
    That is now all lost. Because the Democrats have taken away 
the super majority, our ability to exercise effective 
oversight--either in the majority or minority--is gone. This 
should be concerning to us all.
    I appreciate the time I was able to spend with you, Mr. 
Williams, discussing the valuable work that EDA is responsible 
for in Oklahoma. I won't have any questions for you, but I look 
forward to working with you once you are confirmed.
    I also would like to thank Ms. Suh for coming to my office. 
I appreciated our very frank discussion on the decisions you 
will be responsible for that could negatively impact domestic 
energy independence--something we will get to in the Q&As.

    Senator Boxer. Thank you.
    I think as someone who held out until the last minute on 
this, I can tell you right now there is a difference between 
holding up one person once in a while and holding up so many 
people. There is a difference. I, myself, have holds on people 
but eventually there should be a vote. That is all.
    Senator Fischer.

            OPENING STATEMENT OF HON. DEB FISCHER, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Fischer. Thank you, Chairman Boxer and Ranking 
Member Vitter, for holding today's hearing to consider the 
nominations for these very important positions.
    Mr. Williams and Ms. Suh, I would especially like to thank 
you for taking the time to come to my office and meeting. Thank 
you for the conversations we had at that time. I would also 
like to thank each of the nominees for being here today and 
also for your willingness to serve the public.
    The Senate's role in providing advice and consent on 
Presidential nominees is a responsibility that I take very 
seriously. I appreciate that the nomination process provides 
the opportunity to not only assess the qualifications of 
nominees but also to engage in policy discussions and share 
with nominees the issues of importance in our home States and 
the concerns of our constituents.
    Nebraska has many concerns, especially when it comes to 
activities of the National Park Service and the Fish and 
Wildlife Service. At a time when the National Park Service 
estimates that it has a maintenance backlog of approximately 
$13 billion, many Nebraskans were very, very surprised and 
upset when the National Park Service and the Fish and Wildlife 
Service issued a proposal earlier this year that calls for the 
potential Federal management or acquisition of more than 1.4 
million acres in Nebraska and South Dakota.
    Nebraska landowners are already excellent stewards of the 
natural resources entrusted to them. They are working hard to 
bring both environmental and economic benefits to the area, 
goals that can be achieved through private/public partnerships 
and conservation programs without increasing Federal 
jurisdiction over additional private land at taxpayer expense.
    Nebraskans are also concerned about Fish and Wildlife 
Service policy with respect to endangered species. As the 
agency engages in a closed door settlement with environmental 
activist groups that will lead to delisting determinations for 
more than 250 species, many are nervous about the impacts these 
determinations will have on private property rights, energy 
development and economic growth. The public is entitled to a 
process that is more transparent than it has been thus far.
    I am hopeful that the Fish and Wildlife Service will work 
with stakeholders to implement recommendations from the 
National Academy of Sciences to improve its endangered species 
consultation process for pesticide approvals. For too long, 
product approvals have been bottlenecked by a broken process 
that is impeding innovation and agriculture while doing nothing 
to protect listed species or critical habitat.
    With respect to EPA, Nebraskans want an agency that 
operates in a transparent manner. Given recent reports of 
mismanagement and lack of internal controls at EPA that led to 
a senior employee stealing close to $1 million, the EPA needs a 
financial officer who is attentive and accountable.
    As the agency moves forward with sweeping regulations, with 
significant economic cost under President Obama's climate 
agenda, it is critical that the EPA bases its rules on sound, 
publicly available science.
    Regarding the Economic Development Administration, I am 
hopeful that the EDA will empower communities to develop 
strategies that foster job creation and attract private 
investment. Mr. Williams, you and I will have a lot to talk 
about with regard to some activities where we can both help the 
constituents I have in the Omaha area.
    Obviously there are many important issues at stake to 
discuss with today's nominees. I look forward to the 
opportunity to do so.
    Thank you.
    Senator Boxer. Thank you.
    Senator Boozman followed by Senator Barrasso.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Madam Chair and Ranking Member 
Vitter.
    Each of these positions is incredibly important. Mr. 
Williams, I am eager to hear how you believe EDA can promote 
growth and most importantly in economically disadvantaged areas 
not only in Arkansas but throughout the country.
    When we met I appreciated hearing of your knowledge and 
recognition of the role of the Delta Regional Authority. I look 
forward to your testimony and working with you going forward. I 
think Senator Inhofe made a good point as far as your 
background, and you will have the opportunity to do outstanding 
things.
    Ms. Suh, I also appreciated meeting with you. I appreciate 
your willingness to serve. Not only in Arkansas but throughout 
the country we have numerous concerns with the Park Service and 
Fish and Wildlife. We will explore these concerns as the 
process continues. In short, many of our problems are rooted in 
the lack of transparency and the failure of the Department to 
engage with communities and citizens before taking action. I 
think that is very, very important and would eliminate a lot of 
our problems.
    This has been a long term trend but it has grown worse over 
the last few years. Nonetheless, again, I appreciate your 
willingness to serve and very much look forward to engaging 
with you as the nomination process continues.
    Ms. Wassmer and Mr. Burke, you also will have important 
responsibilities at the EPA. I look forward to your testimony 
and exploring a number of issues with you. Mr. Burke, I am 
interested in hearing your views on the EPA science advisory 
process and how that might be strengthened to ensure that it is 
objective, fair and transparent.
    With that, I yield back my time.
    Senator Boxer. Thank you.
    We turn to our last speaker, Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    I want to thank and congratulate each of our nominees and 
welcome your families.
    Madam Chairman, I would like to discuss my concerns 
specifically regarding one of the nominees before us today. 
That is the nomination of Rhea Sun Suh to be Assistant 
Secretary for Fish, Wildlife and Parks at the Department of the 
Interior.
    The nominee stated in a Hewlett Foundation report national 
gas development was ``easily the single greatest threat to 
ecological integrity of the west.'' National gas development 
easily, she said, was the single greatest threat to the 
ecological integrity of the west.
    As I stated last week before the Senate Energy and Natural 
Resources Committee, I find this viewpoint way out of the 
mainstream and I am sure other members of this Committee do as 
well. Expanding responsible natural gas development is one of 
the biggest economic success stories in this country and has 
created thousands of jobs.
    If confirmed, there are pending issues this nominee will be 
in charge of and influence she will have that will allow her to 
block natural gas production in places like Wyoming, Alaska, 
New Mexico, West Virginia, Louisiana and others.
    There will be numerous decisions that will be made during 
her tenure as to whether to list and designate critical habitat 
for sage grouse in eight western States, not to mention 
potential listings of the lesser prairie chicken in Oklahoma, 
the Gunnison Sage Grouse in Colorado and Utah just to name a 
few.
    She will also have influence over future species, sue and 
settle agreements and the ability to issue new rules. These are 
things which can restrict or lock up more land and ocean from 
natural gas production both offshore and onshore.
    In addition, the National Park Service, which she will 
oversee, has also begun commenting on BLM's hydraulic 
fracturing rule. When raising this statement with the nominee, 
she stated she supports an all of the above approach to energy. 
We can easily support an all of the above approach when the 
activist groups that have been funded through her activities 
her entire career see the above choices as only wind and solar.
    I support an all of the above energy approach because I 
support renewables as well as oil, coal, natural gas, hydro and 
others. The groups that are funded by the Hewlett Foundation 
where the nominee was previously employed for years started 
campaigns, one called Beyond Coal, another called Beyond 
Natural Gas.
    If you truly support natural gas development, you would 
never say it is the greatest threat to the west. In fact, the 
impact on the west from natural gas development is quite the 
opposite.
    I am not the only one who found the nominee's responses 
lacking. Washington Examiner columnist Ron Arnold referred to 
her response in his December 15 column as ``transparent 
impenetrability.''
    Even after the nominee joined the Department, she stated 
before the Environmental Grantmakers 25th anniversary that ``I 
look forward to working with you, my colleagues, mentors and 
friends to utilize the skills and talents of the EGA community 
to advance a more resilient world and a resilient movement.''
    Given the threshold for nominations has been lowered, it is 
incumbent upon this Committee to make sure that we do not 
confirm nominees who want to promote a movement or who consider 
the Grantmakers their colleagues in arms. We need a nominee who 
promotes the agenda of the public at large.
    Natural gas is an important field for our country. Every 
Senator who supports natural gas and has communities that rely 
on natural gas production should be concerned.
    Thank you, Madam Chairman. I look forward to the questions.
    Senator Boxer. Thank you, Senator.
    Now we would ask you all to come forward and we will get 
started. I would ask you to keep your comments to 5 minutes.
    Senator Barrasso, I am going to enter into the record the 
various organizations funded by William and Flora Hewlett 
Foundation. You will be interested that one of them is the 
Christian Coalition so they do a number of things.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. I think we will have each of you speak for 5 
minutes. We might as well start with you, and I call you Mayor 
because once a mayor always a mayor and since that is helping 
you, I will call you Mayor Williams. Please go forward.

   STATEMENT OF ROY K.J. WILLIAMS, NOMINATED TO BE ASSISTANT 
SECRETARY OF COMMERCE FOR ECONOMIC DEVELOPMENT, U.S. DEPARTMENT 
                          OF COMMERCE

    Mr. Williams. Chairman Boxer, Ranking Member Vitter, 
distinguished members of the Committee, I am honored to come 
before you today as President Obama's nominee for Assistant 
Secretary of Commerce for Economic Development.
    I want to express my appreciation for the time that you and 
your staff afforded me to meet with you during the past few 
weeks. It was valuable to gain insight into our mutual goals of 
promoting economic vibrancy in your respective States and 
across the country.
    To Senators Brown and Portman, thank you for your 
introduction and thank you for your great service to the State 
of Ohio. I greatly appreciate the support the Senators showed 
me during my time as Mayor of the city of Youngstown. We are 
better off as a result of their efforts to put pragmatism over 
partisanship when it came to the interest of their constituents 
and this country.
    I would also be remiss not to acknowledge my family who has 
joined me here today--my mother who is the source of anything I 
have been able to accomplish; my wife whose love and support is 
beyond what I deserve; and our son, Ethan, who I believe had to 
momentarily step out, as a 3-year old who has made being a 
parent one of the single greatest joys of my life.
    I come here today with a perspective of economic 
development that has been shaped by almost 20 years of 
experience working both in the public and private sectors. I 
was born, reared and forged in a community that was once the 
poster child of economic decline and devastation, a community 
that was ravaged by the collapse of manufacturing and the lack 
of economic diversity.
    I am proud to tell you that this very same community is 
experiencing a renaissance, a renewal beyond what many thought 
would be possible through a combination of visioning, planning, 
public/private partnerships and investments, and, most 
importantly, a determined citizenry. Youngstown, Ohio, is 
redefining itself.
    Over the course of the past 5 years, there has been well 
over $1 billion of private investment in the city of Youngstown 
resulting in the creation of hundreds of high quality jobs. One 
crowning example mentioned by the Senator was Vallourec Star, 
an international corporation which decided to expand in 
Youngstown. Vallourec Star manufactures seamless tubes and 
pipes used in oil and gas exploration which is, by the way, 
contributing to the President's agenda of all of the above in 
terms of reducing our Nation's dependence on foreign sources of 
oil.
    The city of Youngstown was named as a top 10 destination to 
start a business by Entrepreneur Magazine. The Youngstown 
region is ranked in the top 10 amongst its peers nationally by 
Site Selection Magazine for the most new and expanded corporate 
facilities. The city laid claim to the first National 
Manufacturing Institute.
    Youngstown State University is ranked highly by Forbes and 
Washington Monthly's College Guide among others. Youngstown is 
home to one of the best startup incubators in the world and is 
helping to lead the national export role.
    Without question, the city of Youngstown still faces 
problems and challenges like many communities across this 
Nation. However, the city is no longer being defined solely by 
its problems as it had been for so many decades. It is also 
helping to establish a blueprint for other similarly situated 
communities across the country.
    The Economic Development Administration plays a critical 
role in facilitating the economic transformation of distressed 
communities. I have always held that jobs are not created by 
politicians or government agencies. However, EDA and other 
government agencies do play an important role in helping to 
shape the economic environment. It is within this environment 
that private capital is put at risk by entrepreneurs, whether 
manufacturing, technology or providing goods and services. That 
ultimately creates jobs.
    The public sector also plays a crucial role in investing in 
infrastructure, promoting innovation and encouraging regional 
cooperation, which likewise boosts private sector job creation. 
During the last few years, I have had the privilege to engage 
communities across this country from Alameda County, 
California, to Shreveport, Louisiana, from Flint, Michigan, to 
Gary, Indiana, and Quad Cities, Iowa, just to name a few. 
Without fail, those regions that are undergoing positive 
economic transformation have successfully leveraged public/
private partnerships. This approach is at the core of the 
mission of the Economic Development Administration.
    Over the last 5 years, we have worked to clear away the 
rubble of the greatest economic recession this country has seen 
since the Great Depression. While significant progress has been 
made, there is still a lot of work to be done. I cannot think 
of a better place to continue that important work than from 
EDA.
    In an environment of scarce resources, it becomes ever more 
important that our investments be made strategically and 
catalytically. We must help create an environment in which the 
principles of free and fair market capitalism reward those 
entrepreneurs who take risks, respect those workers who make 
the goods and services, and increases the quality of life in 
the communities that we call home.
    The mission of the Economic Development Administration, 
which is to lead the Federal economic development agenda, 
promote innovation and prepare American communities for growth 
and success in this global economy is one that demands nothing 
short of excellence, accountability and measurable outcomes in 
its execution.
    If I am fortunate enough to garner the support of this 
Committee, and if confirmed by the full Senate, I will work 
with you and your colleagues and the committed professionals at 
EDA to maintain the confidence of the people that we serve.
    Chairman Boxer, thank you for this opportunity to address 
the Committee. I look forward to your questions.
    [The prepared statement of Mr. Williams follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you.
    Ms. Suh.

STATEMENT OF RHEA SUN SUH, NOMINATED TO BE ASSISTANT SECRETARY 
    FOR FISH AND WILDLIFE AND PARKS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Ms. Suh. Thank you, Madam Chair, Ranking Member and members 
of the Committee.
    I think I actually have had a chance to meet with each one 
of you. I greatly appreciate the time that you have afforded 
me.
    Unfortunately, my husband, Michael Carroll and my daughter, 
Yumi, are not able to join me today. My daughter actually has 
her very first Christmas pageant right now. With all due 
respect, there are greater priorities for a 3-year-old who has 
been practicing her songs and dance in the starring role of elf 
No. 3.
    I am a child of the west. I was born in Colorado and raised 
by Korean immigrant parent who found their way to that great 
State like so many other pioneers with dreams of freedom and of 
a better life for their family. While my parents also could not 
be here today, I would like to acknowledge them as well. They 
came to America with nothing and in turn gave me and my sisters 
everything.
    Like so many other Americans, I grew up reaping the 
benefits of the lands and waters managed by our Federal 
Government. My earliest memories are memories of being outside, 
fishing with my father, exploring for fossils and going to camp 
in the shadow of Rocky Mountain National Park. This tapestry of 
lands, the backdrop of my childhood, has influenced me and my 
values throughout my life.
    For the past 4 and a half years, I have had the honor of 
serving as the Assistant Secretary for Policy, Management and 
Budget at the Department of the Interior. I have had the 
privilege of working with each of the nine bureaus at the 
Department on a broad array of issues. I have led efforts to 
secure the resources required by each of the bureaus to uphold 
their missions, but I have focused a concerted effort on 
ensuring that in these challenging fiscal times, we manage 
those resources in a manner that is both effective and 
efficient.
    I have led the enterprise to achieve more than $500 million 
in savings and untold millions in cost avoidance, including 
$160 million in real estate consolidations and $200 million in 
smarter purchasing agreements.
    While my most recent experience at the Department has 
focused more on administrative and fiscal policy, I have nearly 
two decades of issue experience on natural resources. I started 
my career as a Senate staffer working for Senator Ben 
Nighthorse Campbell from Colorado where I worked on both energy 
and natural resource policy.
    I had the unusual opportunity to work on both sides of the 
aisle during that time, 2 years on the Democratic side and a 
year on the Republican side. This unique circumstance 
profoundly shaped my views on policy and left me with the 
strong belief that collaboration, while often not easy or 
straightforward, can result in the most creative and durable 
policy outcomes.
    These beliefs helped guide me in my tenure as a program 
officer for both the Hewlett and the Packard Foundations where 
I continued to work on natural resource issues. In particular, 
I supported the efforts to expand the array of voices and 
perspectives on conservation including those of hunters and 
anglers, indigenous communities and faith-based organizations.
    I am now before you today as the President's nominee for 
the Assistant Secretary of Fish, Wildlife and Parks, a position 
that would allow me to focus more concertedly on the critical 
work of conservation. I come to this opportunity with great 
humility as it would afford me the chance to work with two of 
the most storied agencies at the Department of the Interior, 
the Fish and Wildlife Service and the National Park Service.
    Americans love the outdoors. We love to hunt and fish. We 
love our parks. The national refuge system is truly America's 
backyards. These are the places where millions of us go to 
hunt, fish and explore. These are among our Nation's most 
popular pastimes, and the Fish and Wildlife Service is uniquely 
positioned to welcome a new generation of Americans to be 
connected to the natural heritage that is our birthright.
    When the National Park Service celebrates its 100th 
anniversary in 2016, we will have an even greater opportunity 
to renew the bonds Americans have with their parks. The 
National Park Service's second century is a defining moment, 
offering us an opportunity to celebrate America's natural and 
cultural history and to lay a strong and sensible foundation 
for the next century of stewardship.
    From the first time I hooked a rainbow trout with my dad, I 
became the beneficiary of our Nation's rich natural heritage 
and if confirmed, I hope to continue the legacy of this bounty 
by strengthening the opportunities for Americans to be 
connected to and to benefit from the outdoors by pursuing 
pragmatic balance and solutions that contribute to the 
conservation of the Department's lands and waters for the 
benefit of all of the people of this great country.
    Thank you, Madam Chairman and members of the Committee.
    [The prepared statement of Ms. Suh follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
       
    Senator Boxer. Thank you so much, Ms. Suh.
    Dr. Burke.

    STATEMENT OF THOMAS A. BURKE, NOMINATED TO BE ASSISTANT 
ADMINISTRATOR FOR RESEARCH AND DEVELOPMENT, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Burke. Good afternoon, Chairman Boxer, Ranking Member 
Vitter and members of the Committee.
    It is an honor to appear here today as President Obama's 
nominee to be the Assistant Administrator for Research and 
Development at EPA.
    I have devoted my career to advancing public health and 
environmental protection. For more than 35 of EPA's 43 years, I 
have worked closely with the agency as a State scientist, 
public health official, researcher and member of the Science 
Advisory Board. I have also served on the Board of 
Environmental Studies at the National Academy of Sciences and 
chaired a number of Academy studies looking at science at the 
EPA.
    As with most people, my interests were shaped by my early 
experiences. Growing up in Jersey City in the shadow of the 
Statue of Liberty, I have vivid memories of my early 
environment before there was an EPA: the musty smell of low 
tide in New York Harbor; the summer spraying of DDT; the 
cleaning solvents from the industrial laundries; the black 
plumes from the Jersey Central locomotives; and the chemical 
mountains, giant slag heaps from the chromium factories.
    I also had an early interest in health and disease. Born 
with a congenital heart defect, I was blessed to have 
lifesaving open heart surgery at Johns Hopkins. Three of my 
close childhood friends were not so fortunate and died from 
leukemia and brain cancer.
    My interest in the connection between environment and 
health were galvanized during my graduate studies at the 
University of Texas when the National Cancer Institute released 
an Atlas of Cancer Mortality showing that my home State led the 
Nation in cancer deaths. The media dubbed it cancer alley.
    After graduate school, I was named Director of the New 
Jersey Office of Cancer and Toxic Substances Research. I led 
research on toxic and cancer-causing pollutants that shaped 
many State and national approaches to ensure the safety of our 
drinking water, reduced toxic releases and clean up of 
hazardous waste sites. I also investigated childhood clusters 
of cancer.
    As a State scientist, I served three Governors, both 
Republican and Democrat. I stood at their sides during 
environmental emergencies like the dioxin contamination in the 
Ironbound section of Newark and the closure of our beaches from 
sewage spills and medical waste. I was also fortunate to work 
with the late Senator Frank Lautenberg in his efforts to 
improve chemical safety and prevent cancer.
    My experiences have given me a very practical perspective 
on the importance of strong science to guide difficult 
environmental decisions. I am proud that New Jersey is now a 
national example of the important link between a healthy 
environment and economic growth.
    At Johns Hopkins at the Risk Science Institute, my 
colleagues and I work to advance science, evaluating and 
communicating risk. I have the privilege to train many of the 
emerging leaders in environmental science, some of who are here 
today. I have also worked closely with State and local 
officials and our Federal agencies on numerous important issues 
including emergency preparedness, the chemical exposures to our 
troops, the toxic flood waters of Katrina, nuclear waste clean 
up and the safety of our food supply.
    Through the National Academy of Sciences and the EPA 
Science Advisory Board, I have worked to push EPA to do better 
science to address the needs of decisionmakers. I chaired the 
NAS Committee on Improving Risk Analysis that provided the 
report, Science and Decisions, providing a framework for the 
future of risk assessment.
    While I have not been shy about pushing EPA to do better 
science, I do have a deep respect for the work of agency 
scientists. Science is indeed the backbone of EPA 
decisionmaking, and it has been the foundation of our Nation's 
environmental progress over the past four decades. I believe 
those tasks making these important decisions regarding 
environmental protection for the public good need to be 
informed by the best science, science that is credible, 
transparent, timely and inclusive.
    If confirmed, I look forward to working with the members of 
this Committee, stakeholders in business and industry, State 
and local partners and the broader scientific community to make 
sure that EPA is asking the right questions and getting the 
best scientific answers.
    I thank you, Chairman Boxer and members of the Committee, 
for this opportunity to meet with you today. I am happy to 
answer any questions.
    Since I have a few seconds, I want to acknowledge my family 
and my sons Matt and Tim who are watching, my wife, Margo and 
my daughter, Emily, who are here today.
    [The prepared statement of Mr. Burke follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    Senator Boxer. Thank you very much.
    Last but certainly not least, we turn to Ms. Wassmer.

 STATEMENT OF VICTORIA BAECHER WASSMER, NOMINATED TO BE CHIEF 
    FINANCIAL OFFICER, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Wassmer. Good afternoon, Chairman Boxer, Ranking Member 
Vitter and other members of the Committee.
    It is my honor to appear today before you as President 
Obama's nominee as the Chief Financial Officer for the 
Environmental Protection Agency. If confirmed, I will work 
every day to be worthy of this privilege by serving the 
President and Administrator McCarthy with dedication and 
commitment.
    Before I begin, I would like to take a moment to thank my 
parents, Frank and Viola Baecher, my parents. My mom, who is 
actually here just behind me, grounded me in the spirit of 
public service. After attending the University of Chicago, 
Graduate School of Social Work, they served as clinical social 
workers in the Chicago area public school system. It was 
through their example over decades of dedicated service that I 
learned the importance of giving back, being accountable and 
working with purpose to make things better.
    Over my 20-year career, I have spent 15 years in service to 
the Federal Government. By building on my technical training 
with hands-on, practical leadership and management experience, 
I have had the opportunity to take on progressively challenging 
and invigorating jobs.
    After completing graduate school in public policy at the 
Kennedy School of Government, I spent 6 years at the Office of 
Management and Budget. I first served as a policy analyst in 
the Office of Information and Regulatory Affairs before 
becoming a program examiner in the Transportation Branch, 
overseeing management, regulatory policy and budgetary issues 
over an array of agencies. I learned from master senior 
executives and policy officials the importance of being a 
dedicated, responsible steward of the American taxpayers' 
money.
    After several years spent at the local transit agency and 
in the private sector, the pull of Federal service brought me 
back. I joined the Federal Aviation Administration as a manager 
and later Deputy Director in the Office of Budget.
    I then went on to become a member of the Senior Executive 
Service and the Deputy Chief Financial Officer, managing the 
$16 billion annual budget that allows the FAA to provide its 
mission of being the safest, most efficient aerospace system in 
the world, and being responsible for such a large complex 
budget for such a high profile agency allowed me to apply 
strategic, data-driven approaches to implementing sound 
business practices that ensured performance and accountability.
    In 2010, I became the Chief Financial Officer and Vice 
President of Administration at the Millennium Challenge 
Corporation. MCC was still maturing from a startup 
international development agency and to a results-driven, 
transparent and innovative organization. I was responsible for 
realigning corporate services, including finance, human 
resources, acquisitions and information technology to better 
support the agency's mission.
    I also implemented tighter internal controls and improved 
financial practices which allowed for scarce budgetary 
resources to go further in supporting poor, lower and middle 
income countries that were well governed.
    In August 2011, I was asked to return to the FAA to create 
a new organization for an agency that had made significant 
investments in me as a senior leader. As the Assistant 
Administrator for Finance and Management, I have overseen the 
transformation of the agency's finance, acquisition, 
information technology and regions and center operations 
services into a single, integrated, shared services model.
    After 2 years, I can proudly say that we have moved from a 
new standup organization to a high performing, value added 
operation. When constrained fiscal times necessitated improved 
efficiencies and cost savings, my team and I navigated the 
agency's unprecedented budget cuts. Our data driven approaches 
helped the agency identify approximately $637 million in budget 
reductions, of which over half, $320 million, were through 
contract spending, travel and other non-pay cuts.
    I was asked recently what my definition of success is. 
Throughout my career, success has meant working on a trajectory 
of improving things systematically, making change and getting 
results when even after I have left, things are still moving 
forward.
    If confirmed to serve as the CFO, I will work just as hard 
and with as much commitment using my full talent and experience 
in support of the EPA's mission to protect human health and the 
environment.
    Thank you again. I welcome any questions you may have.
    [The prepared statement of Ms. Wassmer follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Boxer. Thank you, Ms. Wassmer.
    I want to say to all the family members who are here, thank 
you. I neglected to do that. I know families make sacrifices. 
You can just tell from a bit of the back and forth here, 
politics is not for the faint of heart but, except for Mr. 
Williams, the rest of you who have not been in political 
office, I know it is a bit stunning to kind of be in that 
circumstance to accept some of the shots and arrows. That is 
the way it is. I think that is why these hearings are 
important.
    I want to say, Ms. Suh, you received some criticism from 
Senator Barrasso. I am sorry he is not here but I would like to 
enter into the record without objection an amazing list of 
letters of support headed by former U.S. Senator Ben Nighthorse 
Campbell, Ducks, Ltd., Outdoor Industries Association, Nature 
Conservancy, Student Conservation Association, Southeast 
Tourism Society, Trust for Public Land, Land Trust Alliance, 
Defenders of Wildlife, Wilderness Society, and American Sports 
Fishing Association, Congressional Sportsmen Foundation, 
Pheasants Forever, Quail Forever, Theodore Roosevelt 
Conservation Partnership, Trout Unlimited, Izaak Walton League 
of America, Wildlife Management Institute and the Mule/Deer 
Foundation. Place these letters in the record because I think 
that is a tremendous list of support.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. Second, I am going to put into the record 
what I said to Senator Barrasso. You were with the William and 
Flora Hewlett Foundation as well as the David and Lucile 
Packard Foundation, named after the very, very famous David 
Packard, so important to Silicon Valley in the long ago days 
when it got started.
    I think it is important to see some of the groups that 
these foundations support: Bipartisan Policy Center, Catholic 
Charities, Christian Coalition, the NAACP, Theodore Roosevelt 
Conservation Partnership, Western Governors Association, 
American Farmland Trust, National Geographic Society, National 
Trust for Historic Preservation, and Taxpayers for Common 
Sense.
    I know when you were in those foundations you made 
suggestions to fund these very organizations. I want to put 
that into the record.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. Then I want to home in on your sense of 
natural gas because as I look at natural gas, it is a very 
important contribution; it is less carbon than the fossil fuels 
and I look at it as a transition fuel because I am hoping that 
we can get clean energy but it is slow and I think it is a very 
important part of our mix.
    I also believe that it is critical that it be done safely 
because my view is having watched nuclear power, when nuclear 
power is done safely everyone supports it but when it is not 
done safely--and we have had that experience in our State--it 
shuts down.
    I want to ask you specifically if you could share your view 
on the role of natural gas and how it fits into the 
Administration's energy strategy.
    Ms. Suh. Thank you very much for the opportunity to answer 
that question.
    Not only do I support the President's all of the above 
energy strategy but specifically as you referred to natural 
gas' role within that portfolio of energy supply in the 
country. It is hugely important.
    In 2013, I believe natural gas royalties returned $1.6 
billion to the American taxpayer in the form of royalties. 
Twenty percent of Federal lands accounts for 20 percent of the 
natural gas production in the country. I recognize the 
importance of that and I am committed to it. I think that 
commitment is demonstrated by the support I have given to 
promote robust budgets for energy development that include 
natural gas development.
    Since 2008 there has been a 57 percent increase in the 
energy budgets within the Department of the Interior and that 
clearly demonstrates not only a priority around energy 
development, but specifically an emphasis on how we do this 
development in a way that is balanced.
    The final thing I will say is that energy development is a 
critical part of our Nation's economy. I think the job at the 
Department of the Interior, specifically the job if I am 
confirmed for Fish, Wildlife and Parks, is a job that will 
require the balance of needs and aspirations of local 
communities for economic development with the obligations that 
we have at the Department for conservation.
    I think the critical reality is how you pursue that balance 
with integrity and respect for local communities.
    Senator Boxer. Thank you.
    Ms. Wassmer, would you agree to meet with my staff as soon 
as possible to discuss your plans for strengthening oversight 
of EPA's financial management system to detect and prevent 
fraud and to effectively manage spending of resources to better 
protect public health and the environment?
    Ms. Wassmer. Yes. If I have the honor to serve in that 
position, I would be honored to come back and meet with you and 
your staff.
    Senator Boxer. That would be very important.
    I am going to ask everyone here to answer yes or no down 
the line so I can get this out of the way. Do you agree, if 
confirmed, to appear before this Committee or designated 
members of this Committee and other appropriate committees of 
the Congress and provide information subject to appropriate and 
necessary security protection with respect to you 
responsibilities?
    [All nominees respond in the affirmative.]
    Senator Boxer. Do you agree to ensure that testimony, 
briefings, documents, electronic and other forms of 
communication of information will be provided to this Committee 
and its staff and other appropriate committees in a timely 
manner?
    [All nominees respond in the affirmative.]
    Senator Boxer. Do you know of any matters which you may or 
may not have disclosed that might place you in any conflict of 
interest if you are confirmed?
    [All nominees respond in the negative.]
    Senator Boxer. Thank you all.
    Senator Vitter.
    Senator Vitter. Thank you, Madam Chair.
    Ms. Suh, in light of your answer to the Chair's first 
question about natural gas, the obvious follow up is this. In 
light of that, why did you say ``the pace and magnitude of this 
development''--meaning natural gas--``is easily the single 
greatest threat to the ecological integrity of the west''?
    Ms. Suh. Thank you, Senator Vitter, for that question. I 
want to thank your staff for the opportunity to meet with them 
in the last couple of weeks.
    Development has consequences for landscapes. Impacts 
associated with development are, in many ways, inevitable, so 
the impacts associated with natural gas, particularly natural 
gas development that occurs over a large area and large acreage 
has impact.
    The role that I have at the department and the role for me 
specifically around how you balance that impact with the need 
for economic development and fulfilling the aspirations of 
communities is demonstrated by my report.
    Senator Vitter. Can I take it from this quote that you 
disagree with the current ``pace and magnitude of this 
development''?
    Ms. Suh. I am sorry, could you clarify the question?
    Senator Vitter. The quote suggests that you disagree with 
the current ``pace and magnitude of this development in the 
west.'' Is that correct or not?
    Ms. Suh. That is not correct.
    Senator Vitter. Again, why did you say that? I don't 
understand your first answer. Why did you say that?
    Ms. Suh. Again, there are real impacts associated with 
energy development. The question is how do you balance those 
impacts with the conservation and economic needs of 
communities?
    Senator Vitter. Do you think those impacts of natural gas 
in the west is ``the single greatest threat to the ecological 
integrity of the west''?
    Ms. Suh. Again, development has consequences but I believe 
that those consequences can be balanced in a rational and 
reasonable way.
    Senator Vitter. The Administration decided to implement a 
drilling moratorium in the Gulf after the BP disaster. That 
cost thousands of jobs and a lot of jobs overseas. Did you 
raise any objection to that decision when it was being made?
    Ms. Suh. I was not a part at all of any of those 
conversations or any of the decisionmaking process around that 
moratorium.
    Senator Vitter. Were you ever asked in your role in 
Interior about the potential impacts to the Treasury of 
shutting down that energy development?
    Ms. Suh. No, sir, I was not.
    Senator Vitter. Did you object in any way to the recent 
decision by Fish and Wildlife to move forward with 30-year 
permits that allow for wind farms to kill a significant number 
of bald eagles?
    Ms. Suh. I was not involved in that decision. I am aware of 
that decision and it is my understanding that rule not only 
applies to the wind industry but to industry overall and 
enables us specifically with the industry to develop a 
regulatory framework for both certainty and predictability and 
an opportunity for permitting and therefore, enforcement.
    I believe it gives the Fish and Wildlife Service a greater 
ability to ensure the protection of that species and ensure the 
appropriate oversight of all industries.
    Senator Vitter. Did you object to the Office of Surface 
Mining Stream Buffer Zone Rule which would cause up to 7,000 
job losses and have a negative impact in 22 States?
    Ms. Suh. Again, I was not involved in that policy decision.
    Senator Vitter. If you haven't been involved in any of the 
stuff, why have you said that in your current role, ``I've been 
involved in every single one of the policy priorities from 
Secretary Salazar to now Secretary Jewell.'' It is a very 
broad-based role in the Department. You said that in that 
quote. What am I missing because it seems at odds with your 
answers here?
    Ms. Suh. As the CFO for the Department of the Interior, I 
am primarily responsible for budget formulation and execution. 
I have supported and been involved in support of all the major 
policy priorities for each of the nine bureaus that we have.
    Senator Vitter. I have just mentioned some of the major 
policy priorities and you said you have not been involved in 
any of those.
    Ms. Suh. I have been involved in supporting the necessary 
resources required to support those policy decisions.
    Senator Vitter. Just a comment. It strikes me as those two 
things are at odds but I will come back to some other concerns.
    Thank you.
    Senator Whitehouse [presiding]. Ms. Suh, welcome to the 
Committee. The Chairman has stepped out so I have the gavel 
momentarily until she returns.
    I wanted to follow up on the conversations you and I have 
had which are quite specific to Rhode Island. One has to do 
with the national park that we are hoping to establish in Rhode 
Island. We are the State with the least national parks of any 
State, and you could probably fit our national park about in 
this hearing room.
    Senator Reid has been working very hard on the Blackstone 
Valley Historic District becoming a national park. One of the 
ways in which we would like the different elements along the 
Blackstone River to be accessible and connected is by water as 
well as by car and bicycle.
    I want your assurances that you will work with me and 
Senator Reid in development of that project. It has been 
described as pearls threaded on a string. We want to make sure 
the string is both road, bike, hike and water as well for 
kayakers, canoers and people who want to take advantage of 
that.
    Ms. Suh. Thank you again for the time you spent with me. I 
absolutely will commit to working with you in pursuing the 
opportunity for the park designation and the opportunities 
specifically around the waterways that can provide the 
connectivity between those pearls.
    Senator Whitehouse. Thank you.
    Rhode Island is a small State, so all of the opportunities 
that we have for recreation are really precious to us. We have 
some very, very special rivers. They are not great rivers. It 
is not the Columbia or the Mississippi but we have a number of 
rivers and hundreds of dams as a result of being an old State, 
an original State and one with all these rivers.
    Some of the dams are very old, some are very small and 
present different problems, but a common theme that I hear is 
that if you wanted to build a canoe or kayak passage to help 
make navigating a dam safer, easier and expand the recreational 
opportunities there or if you wish to install a micro-hydro 
facility to generate a little bit of power from the dam, or if 
you wish to put in a fish ladder so that the fish that used to 
swim up these rivers in order to breed could do so again and 
you could restore that part of their environment.
    In all of those different circumstances, you run across 
multiple Federal agencies and relatively complex and demanding 
procedures, which if you wanted to do something with a dam on 
the Columbia, the Mississippi, the Missouri or some of our 
major rivers, you could understand. For some of these very 
little rivers and very small dams, particularly if it is a 
private group of canoers and kayakers who want to build the 
passage, the regulatory cost of trying to sort through that 
basically disables anyone's ability to take advantage of those 
opportunities.
    I hope very much that you will work with me and my office 
in trying to identify ways for these very small dams on very 
small rivers that the application process, the information that 
is required and all that can be reduced so that some of these 
very beneficial uses can be made feasible where they aren't now 
because of the cost of compliance.
    Ms. Suh. Senator, if confirmed, I am absolutely happy to 
continue to work with you on this issue. Since our 
conversation, I actually went back and had some conversations 
within the Department to try to get some sense of why these 
potential hurdles exist and what we can do about them.
    Again, if confirmed, I am committed to working with you and 
your staff to ensure that we utilize the opportunities that we 
have with those resources to maximize the recreational benefits 
we have for our population.
    Senator Whitehouse. I appreciate it. Thank you very much. 
Best wishes to you.
    Senator Boxer [presiding]. We will now go to Senator 
Inhofe.
    Senator Inhofe. I have to say, Ms. Suh, I had not seen that 
quote and I am in shock. You say ``the pace and magnitude of 
gas development is easily the single greatest threat to the 
ecological integrity of the west,'' the single greatest. What 
is the threat? Do you stand by that statement now or have you 
changed your mind?
    Ms. Suh. Sir, I think I have made it clear that as a member 
of this Administration, I support all of the above energy 
policy and I support natural gas development. I support the 
opportunities for pursuing energy development.
    Senator Inhofe. That isn't satisfactory. That is such a 
strong statement. I am still in shock.
    You and I talked about a specific problem we have in 
Oklahoma, the lesser prairie chicken and the American burying 
beetle in the eastern part of the State. The American burying 
beetle has been endangered since 1989. We have found 
significant populations of that particular critter and we had a 
system for a while called the Beta Wade. I don't know what 
happened to it or if you are familiar with that system.
    It was supposed to be replaced by something to correct the 
problem. The American burying beetle in one project, a $100 
million pipeline, has completely stopped operations. For 
another company, it has already cost $12.5 million.
    In April, I brought this up and was told the Service would 
approve a new conservation plan by December 2013. It is now 
December 2013. I know you haven't been here but will you make 
any kind of commitment to come up with a conservation plan? We 
have people losing money every day over something over which 
they have no control whatsoever.
    Ms. Suh. I understand. After the conversation that we had 
last week, I followed up with the Fish and Wildlife Service to 
try to determine the timeframe. It looks like spring--March or 
April 2014. My understanding is the work they are doing on the 
general conservation plan is work they are specifically doing 
with industry to ensure whatever ends up in the plan is 
workable and balanced with industry and trusts.
    Senator Inhofe. Let's say April 2014?
    Ms. Suh. I believe that is correct.
    Senator Inhofe. We will be having hearings, and it is 
something that really needs to be corrected. It is a very 
serious problem.
    Last April, Richard Hatcher, Director of the Oklahoma 
Department of Wildlife Conservation, wrote Fish and Wildlife 
asking to start a delisting process. Apparently it is accurate 
that these populations of the American burying beetle are 
plentiful now and they are coming along. He has not gotten a 
response from that letter and that was in April. If you are 
confirmed, would you respond to him or see that a response is 
made?
    One thing I do not like about bureaucracy is if there is no 
response, then you do not have any idea. It seems as if that is 
sometimes deliberate. Would you make an attempt to give a 
response to Mr. Hatcher if you are confirmed?
    Ms. Suh. Yes, sir, if I am confirmed, I absolutely will 
commit to that.
    Senator Inhofe. Dr. Burke, when Lisa Jackson was the 
Director of the EPA, there was a lot of conversation at that 
time about hydraulic fracturing, about precision drilling and 
about horizontal drilling. I would say this and I should have 
mentioned this while I was asking you a question, Ms. Suh, that 
you talked about the increase in development of natural gas 
during the last 4 or 5 years. That is all on private or State 
land. None of that--in fact, we have had a reduction on Federal 
land. This is the big problem we have.
    Do you agree with Lisa Jackson? I asked her, has there ever 
been a confirmed case of groundwater contamination as a result 
of hydraulic fracturing? She said no.
    Mr. Burke. I am not familiar with that question but from my 
own experience, having done many studies of groundwater 
contamination, I am not familiar with a specific case.
    Senator Inhofe. Very good, that is essentially what she 
said. We have talked about this over a period of time. It 
happens the first hydraulic fracturing was done in my State of 
Oklahoma in 1948 and there have been over a million 
applications of this and yet we do not have that.
    Ms. Suh, do you agree with his response to that question?
    Ms. Suh. I am less sophisticated in terms of my exposure to 
research and development but I am not aware of any specific 
studies or findings either.
    Senator Inhofe. Thank you, Madam Chairman.
    Senator Boxer. Senator Fischer.
    Senator Fischer. Thank you, Madam Chair.
    A little follow up from Senator Inhofe's question, Ms. Suh. 
Are you aware that from 2008 to 2012, the U.S. natural gas 
production increased by 11 percent overall as it fell 13 
percent on Federal lands?
    Ms. Suh. I was not aware of that statistic.
    Senator Fischer. If confirmed, do you hope that energy 
production on Federal lands will have gone up or down on your 
watch?
    Ms. Suh. Energy production on Federal lands obviously 
continues to be a hugely important part of our economy. I think 
the responsibility of the Federal Government, specifically the 
Department of the Interior, is to balance the opportunity for 
economic development which obviously means a lot to the members 
of this Committee and your States. I commit to that.
    Senator Fischer. Would you personally try to look for ways 
to increase energy production on Federal lands?
    Ms. Suh. I specifically would, if confirmed, look for 
opportunities where there are development opportunities to 
balance those development opportunities to allow those 
development opportunities to continue to move forward in a way 
that allows us to conserve our natural resources and fulfill 
our statutory obligations for those resources.
    I believe you can balance those things. I believe it is all 
about the approach and all about the intention of driving 
toward a solution that is balanced on both sides.
    Senator Fischer. Do you believe balance can be found 
between conservation and management of natural resources?
    Ms. Suh. Absolutely.
    Senator Fischer. On to pesticides, which I mentioned in my 
opening statement. The EPA must consult with the U.S. Fish and 
Wildlife or the National Marine and Fisheries Service when it 
comes to dealing with pesticides. The EPA and the Services 
currently disagree on the fundamental legal and science policy 
matters related to their respective obligations under the 
Endangered Species Act and FIFRA.
    There are scientific disagreements along with the lack of a 
sound and workable process for consultation under the ESA. That 
creates what I believe to be a huge bottleneck that we are 
seeing for the pesticide registration process. Another issue 
with that is also the lack of resources, either human or 
monetary, that the Services face.
    It is really difficult for I think agricultural innovation 
to take place in this area. I think it is extremely important 
not just to the agricultural economy but to our natural 
resources as well. How do the Services plan to secure enough 
funding and more importantly, find other alternatives so that 
you can keep pace with that workload we are seeing with the 
pesticide consultation?
    Ms. Suh. Obviously these are challenging budget times. I 
think the Fish and Wildlife Service is working hard to 
prioritize its budget in a way that delivers to the American 
public. My understanding is that they are working through 
recommendations of the National Academy of Sciences report that 
will help inform the Federal family in how we can best proceed 
in a way that expedites clarity and transparency around these 
outcomes.
    Senator Fischer. You talked about the Federal family. Would 
you try to work in your position, if you are confirmed, to work 
better with EPA to come up with some kind of agreement when it 
comes to these innovations? I think they are very positive with 
regards to pesticides?
    Ms. Suh. I absolutely would commit to that. I believe the 
role we all have in whatever Department we sit, we are 
responsible for ensuring that we act reasonably, we move beyond 
our silos and try to create outcomes that have positive 
consequences for the American people and the resources that we 
manage.
    Senator Fischer. Can you comment on the role Fish and 
Wildlife and the National Marine and Fisheries Services play in 
protecting threatened and endangered species as related to 
EPA's registration of the products? Do you think you can 
protect the species and still ensure efficient registrations? 
Are those mutually exclusive goals? Can you bring them 
together?
    Ms. Suh. Not understanding the specifics of the situation, 
I haven't read the National Academy of Sciences report but yes, 
I do believe that they are not mutually exclusive goals. The 
pursuit is to try to do exactly what you say in creating that 
balance.
    Senator Fischer. Thank you. I think it is very, very 
important for our environment and our economy that these move 
forward quickly.
    Ms. Suh. Understood.
    Senator Fischer. Thank you.
    Senator Boxer. Senator Boozman.
    Senator Boozman. Thank you, Madam Chair.
    Ms. Suh, I want to touch briefly on a couple of things that 
were mentioned when you were in the office. One of those is the 
national fish hatcheries and how important those are in the 
mission of mitigation.
    The other was the Neosho Mucket and rabbitsfoot mussel, 
talking about dramatically increasing the critical habitat of 
that in Arkansas, 750 miles. Most people feel that is 38 
percent in excess but asking for a commitment to look at these 
issues and as you do that to look at the serious consequences 
of listing critical habitat and the economic development that 
goes along with it.
    Senator Inhofe has a similar situation. I think if you went 
through Congress, we all would have some sort of similar things 
but this is very, very important. Make sure that it is based on 
science and common sense.
    Ms. Suh. Absolutely. I commit first and foremost to abiding 
by scientific integrity principles and abiding by the best 
available science that we have in the Federal Government.
    Specifically as it relates to the fish hatchery issue, I 
recognize the importance of those facilities in your State. I 
know the Fish and Wildlife Service has made it clear they are 
not closing any fish hatcheries in 2014.
    Again, obviously these are difficult budget times, so if 
confirmed, I look forward to working with you to try to figure 
out how we can balance our resource constraints with the 
opportunities to keep hatcheries viable and open.
    Senator Boozman. Thank you very much.
    Dr. Burke, in the spirit of good science, in May of this 
year I had the opportunity to question Dr. Collins of NIH. I 
asked him if taxpayers were providing money for scientific 
research. If they were publicly funded, should they have access 
to the materials? His answer was, ``Yes, we strongly support 
the need for that. If the public has paid for the research, the 
public should have access to it. At NIH, I think it is fair to 
say it has taken the lead in trying to make sure that kind of 
access to information happens in a timely fashion.''
    I asked him if there was any reason that research would not 
be provided. One of the guys with him was head of Infection 
Disease and he said, yes. If we are working on some microbe 
that got loose or the public learned how to replicate it or 
whatever and it was a threat to the public, they probably 
wouldn't do that.
    One of the problems we have had is, as we have seen the 
clean air regulations coming about, not getting access to the 
science that the regulations are based on. Can you comment as 
to your feeling about that, if that is appropriate or not 
appropriate? How is that justified?
    Mr. Burke. Thank you for the question. I think it is an 
important one. As an academic scientist, we are grappling with 
this issue, particularly in the biomedical sciences. I think 
science has to be transparent and credible and to every extent 
possible, particularly data funded by the Federal Government, 
be made available for reanalysis and stimulate greater research 
and understanding.
    I do want to mention one caution. As a Dean at Hopkins, we 
are concerned about very personal, confidential medical 
records. We go to great lengths to protect individual personal 
records to some regard and where there are individual 
identifiers. However, I think there are ways to anonymize data, 
there are ways to make data more available and I agree working 
with the research community to promote much greater 
availability of research data.
    Senator Boozman. I understand with medical data but the 
reality is that every other discipline in medicine--I am an 
optometrist by training and I go to meetings all the time and 
they talk about patients all the time. They don't say who they 
are but they talk about specific patients with specific 
problems and studies based on specific patients with specific 
problems.
    The idea that the data cannot be released because you 
cannot figure out a way to redact that or make it such that you 
are not providing those protections just doesn't make sense to 
me.
    Mr. Burke. I know being a member of the academic community, 
we are making great strides in doing just that to make the data 
available wherever possible.
    Senator Boozman. So you will work with us to make sure that 
data you use to make decisions, we will get the data?
    Mr. Burke. If confirmed, I look forward to working on that 
issue and working toward making data much more widely 
available.
    Senator Boozman. Again, as a very prominent scientist, you 
certainly understand the importance of that. You mention your 
friends who suffered injuries and things but when you are 
dealing with making such significant findings that affect the 
public, how can Congress do that if they don't have access to 
the data or if the rest of the scientific community cannot have 
access to the data to make sure it is good data?
    Mr. Burke. I agree with you but I also feel that there are 
laws to protect the individual but I think we can achieve a 
balance.
    Senator Boozman. Thank you. I understand totally. I guess 
the problem is that everyone else has been able to figure out 
how to do this except for EPA.
    Mr. Burke. If confirmed, I would be very happy to look into 
that and to work with EPA so that we can make data more greatly 
available.
    Senator Boozman. Thank you.
    Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator. I look forward to 
working with you on that.
    I want to thank the panel very much. We have asked you a 
number of questions and will keep the record open for more than 
2 weeks, until January 4. Do you each commit to answer those 
written questions and get them back to us by January 4, a 
little more than 2 weeks? Two weeks falls on New Year's Eve and 
I didn't want to think about you sitting there writing answers 
on New Year's Eve. Would you commit to answering them? I have a 
number myself. Is that all right?
    [All nominees respond in the affirmative.]
    Senator Vitter. Madam Chair, I had understood we would have 
a second round.
    Senator Boxer. I don't need a second round but go ahead.
    Senator Vitter. Thank you.
    First, I would like unanimous consent to put into the 
record the full written statement of Jonathan Turley we 
discussed a while ago.
    Senator Boxer. Sure.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Vitter. That will underscore that I quoted it 
completely accurately and in the proper context. There is no 
narrow context in which it was given.
    My questions in the second round are for Dr. Burke. I 
really share a lot of the concerns about sound science that we 
have talked about. I have been involved in that in a lot of 
different contexts including the NAS recommendations, 
recommendations on formaldehyde. Do you think congressional 
oversight in this area including that instance but others has 
been helpful in improving EPA's science?
    Mr. Burke. Senator, I think you and I share the same goals 
in improving EPA's science. As a member of the National Academy 
panels and the chair of a major panel, I am very aware of your 
work to promote better science and of the tremendous positive 
impacts of the formaldehyde report on changing the way EPA 
conducts their risk analysis for their IRIS reports. We agree.
    Senator Vitter. I appreciate hearing that. Will you commit 
specifically to helping work to implement those NAS 
recommendations with regard to how EPA approaches its 
scientific work in general?
    Mr. Burke. If confirmed, I look forward to that.
    Senator Vitter. As you can tell from some of my colleagues' 
comments, we think a particularly important example of how 
science can be used or abused is the ongoing debate about 
fracking. Would you commit in particular to help apply NAS and 
other sound recommendations regarding the right way to do sound 
science to any science with regard to fracking at EPA?
    Mr. Burke. Yes, Senator.
    Senator Vitter. I also completely share the comments of my 
colleague from Arkansas about data transparency. I don't think 
anybody wants to disclose private identifiers or private health 
or medical information but I believe in virtually every case 
involved in these studies there is a way to mask that sort of 
identifying information and therefore have the best of both 
worlds, absolutely maintain the privacy of any individual 
patient and release the data underlying proposed regulations 
scrubbed of those identifiers.
    Am I missing something or do you largely agree with that?
    Mr. Burke. I largely agree with it but I want to talk a 
little bit from personal experience because even right here in 
Washington, DC, I have done community level studies. I just 
want to give you an example.
    I mentioned I did childhood cancer clusters. Sometimes when 
we are working in a small community with very small numbers, it 
is very difficult to make everything available because we 
wouldn't want to violate an individual child's right of privacy 
about their disease or a family's confidentiality. There are 
always measures that we take to protect that individual.
    For the large part, I absolutely agree with you. We can do 
a much better job in making scientific data available from our 
research studies.
    Senator Vitter. Great. In reaction to this discussion we 
have had for a couple of years now, President Obama actually on 
May 9 of this year, issued his Open Data Executive Order that 
instructs Federal agencies to make that data public after it 
scrubs it of personal identifiers. Are you aware of that 
Executive Order and do you agree with that?
    Mr. Burke. Although I don't know the specific details of 
that, I know that is the direction the Administration is 
moving. I look forward to participating in that and working 
with other members of the Administration, if confirmed, and 
also my colleagues in the scientific community to make progress 
in that area.
    Senator Vitter. Thank you very much.
    Thank you, Madam Chair.
    Senator Boxer. This is really good that you got the whole 
thing here with the paper and all the cites because the only 
two cites I have come across on the two issues is Defense of 
Marriage Act and Immigration but I think maybe there is 
something about Environment in here. I haven't seen it so I 
look forward to reading the entire thing.
    Senator Vitter. We can continue this debate whenever you 
like. My point is he was making statements in a broad context 
and that was certainly not a criticism from the Left. He says 
in this he actually agrees with a lot of the policies like the 
immigration policies, like the policies behind non-enforcement 
of the Defense of Marriage Act, but he disagrees with the 
Administration going beyond its authority.
    Senator Boxer. I understand but I found it fascinating that 
the only cases I saw as I looked at all the background which 
you are putting in the record, which I will have my counsel do 
a better job than I did, a cursory review, is the backup papers 
because he is very general. He calls it the [unintelligible] 
presidency and all that but then he cites gay rights and 
immigration and says that the President is harming those 
issues. It is really interesting to read but sometimes the far 
Left and the far Right come together.
    Here is the thing. I went back because Senator Vitter has 
every right to criticize me as Chairman for putting too many 
people here in front of us. I went back and I thanked Senator 
Inhofe for recalling that he did have one time where he had 
seven people in a row. Actually, it happened twice and I am 
going to put in the record those examples--one in 2005, one in 
2006 and then another where there were five people in 2005.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. It is just not true and having four people 
here, I think is quite manageable. I think we are astute enough 
to question each and every one of you.
    I just want to say in closing I am sorry that you saw some 
tensions here but that is the way it is. That is what democracy 
is. The minority has every right to complain and the majority 
has every right to defend themselves and the way they conduct 
business.
    We are also going to produce for the record the number of 
hearings we have held since President Obama came into office 
comparing it to when President Bush was in office because I 
think it is important what we are hearing here constantly, that 
this Committee is not looking at the issues. It simply isn't 
true. What you will find is we have done much more.
    The facts are stubborn things but they will be put in the 
record.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. I want to thank each and every one of you. 
It is a sacrifice, it is, to put yourself before the 
questioners and it is a sacrifice for your families to have to 
hear questions that are sometimes less than flattering but I 
got to tell you, it is worth it and I have a great feeling 
about each and every one of you because you all are so very 
qualified.
    I personally, and I know all of us are, grateful to you for 
putting yourselves out there.
    I have a number of questions. Please get your answers to 
the questions by January 4 and I look forward to moving your 
nominations expeditiously.
    Thank you very much.
    Senator Vitter. Madam Chairman, if I could respond to some 
of your latter comments?
    Senator Boxer. We stand adjourned.
    [Whereupon, at 4:24 p.m., the Committee was adjourned.]
    [An additional statement submitted for the record follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    Before I begin, I would like to warmly welcome all of our 
nominees to today's hearing and thank you for willingness to 
serve and go through the nomination process. As Chairman of the 
Homeland Security and Government Affairs Committee, I know how 
time consuming the nomination process can be for not only the 
nominee, but also the Committee. That's why I would also like 
to thank the Madam Chairman for her tireless work to move the 
nominees in our Committee's jurisdiction--like the ones before 
us today--forward in a timely fashion.
    Today's hearing highlights the fact that we are lacking 
critical leadership in numerous positions in just about every 
agency, undermining the effectiveness of our Government. This 
has been a problem that has plagued the executive branch 
through both Democratic and Republican administrations--a 
problem so prevalent that I've started referring to it as 
``executive branch Swiss cheese.'' While Congress and the 
Administration have taken steps to address this problem, the 
fact remains that we still have more work to do to ensure that 
we have talented people in place to make critical decisions.
    That's one of the reasons why today's confirmation hearing 
is so important. I believe all of the nominees before us are 
extremely qualified and look forward to working with all of 
them in their respective agencies if confirmed.
    I especially look forward to working with Ms. Rhea Sun Suh, 
who, if confirmed, will oversee two very important divisions 
within the Department of Interior--the Fish and Wildlife 
Service and the National Park Service. Wildlife conservation is 
important to me and to all Delawareans, and we've been 
particularly thankful to the Fish and Wildlife Service for 
undertaking extensive plans to overhaul Prime Hook National 
Wildlife Refuge.
    The dynamic environment within the Refuge and the wildlife 
that depend on this habitat are extremely vulnerable to rising 
seas and coastal storms and have been badly damaged by coastal 
storms in recent years. Along with the rest of our Delegation 
and Governor Markell, I will look forward to continuing our 
close relationship with the Fish and Wildlife Service--and 
working with Ms. Suh if confirmed--as we implement the Refuge's 
new Conservation Plan.
    And if confirmed, Ms. Suh will also be working with 
Director Jon Jarvis to oversee the National Park Service--
which, as many of you know, is of most interest to me. After a 
10-year effort, Delaware finally became part of the National 
Park System in April of this year with the designation of the 
First State National Monument.
    Director Jarvis has already assigned a superintendent to 
the First State National Monument--Delaware native Mr. Russ 
Smith. Mr. Smith has already hit the ground running; I do not 
believe there could have been a better choice for our first 
superintendent.
    If confirmed, Ms. Suh, I look forward to working with you 
to ensure the First State National Monument is another success 
story of the National Park System despite the limited budgets. 
I also plan on continuing legislative efforts to authorize a 
national park in place of the national monument--and look 
forward to working with you on these efforts.
    Thank you again to Ms. Suh and the other nominees before us 
today.

                                 [all]
</pre></body></html>
